Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-04-95-06015
Office of
Audit
Review of the Effectiveness
of the Social Security Administration`s Low Birth Weight Baby
Program - A-04-95-06015 - 7/29/97
This final report presents the results of our review
of the effectiveness of the Social Security Administration`s
(SSA) Low Birth Weight Baby Program. The objective of our review
was to evaluate the effectiveness of SSA`s policies and procedures
for determining initial and continuing Supplemental Security Income
(SSI) eligibility for children with low birth weight (LBW).
At the beginning of 1995, about 892,000 of the 6.3
million SSI recipients were blind or disabled children. Our sampling
of LBW cases showed that SSA`s operating policies and procedures
for determining SSI eligibility for LBW children were generally effective.
SSA performs periodic continuing disability reviews
(CDR), as required by statute, to establish the continuing eligibility
of SSI recipients. An SSA initiative to reduce the backlog of CDRs
in the LBW program began in late 1993. SSA could not process SSI
medical improvement diaries prior to that time. To date, over 40
percent of the 2,864 CDR cases in the 2 initial phases of SSA`s
initiative resulted in cessation of benefits. In these cases, the
children`s impairments sufficiently improved to enable them to
function in an age-appropriate manner. Similar rates are expected
from the 6,000 cases released during the last 2 phases in 1995.
Our sample of 50 CDR cases showed that 92 percent of
these LBW children had diary dates that matured 1 year after adjudication.
Although 16 of the 35 cases in our sample with completed CDRs were
terminated from the SSI program, CDRs were not performed in a timely
manner. CDRs for the 35 cases occurred between 4 to 30 months after
the scheduled review date. We estimate that SSA could have saved
about $79,900 if these children`s benefits had been terminated
when their diary dates matured. Statistically projecting our sample
results to the 8,864 children in SSA`s LBW initiative, $7.78
million to $20.56 million may have been saved if CDRs had been performed
in a timely manner.
The Welfare Reform Reconciliation Act of 1996 (the
1996 Welfare Act) contains new requirements for childhood disability,
including CDRs for LBW babies no later than 12 months after birth.
The selection criteria identified by SSA is intended to meet the
new legislative requirements for LBW children. We recommend SSA prepare
a written implementation plan with anticipated time frames in which
to address the requirements of the new law and report the results
to the Congress. SSA agreed with our recommendation (see Appendix
B).
Back to top
INTRODUCTION
SSI is a cash assistance program administered by SSA
and financed from general funds of the Department of the Treasury.
The SSI program, authorized in 1974 by title XVI of the Social Security
Act, assures a minimum level of income to people with limited income
and resources who are aged, blind, or disabled. Applicants must meet
all of the following requirements to be eligible for SSI benefits:
at least age 65, blind, or disabled;
a resident of the United States (citizen
or qualified alien);
no greater income and resources than permitted;
and
filed an application for SSI benefits.
As of the beginning of 1995, 6.3 million individuals
were receiving federally-administered SSI benefits--an increase of
5.2 percent over the previous year. Of that number, 14 percent, or
about 892,600 recipients, were blind or disabled children. During
1994, about 205,600 blind and disabled children were awarded benefits.
The SSI program payments totaled $25.9 billion in 1994, up 5.4
percent from 1993.
Disability is defined as the inability to perform any
substantial gainful activity by reason of any medically determinable
physical or mental impairment which can be expected to result in
death or to last for a continuous period of not less than 12 months.
Until early 1990, individuals under the age of 18 were considered
disabled if they suffered from any medically determinable physical
or mental impairments which were comparable in severity to disabling
impairments for adults. However, as the result of the February 22,
1990, Supreme Court decision in Sullivan v. Zebley, the criteria
for evaluating disabled children were revised to include assessment
of the child`s ability to engage in age-appropriate activities.
Monthly SSI payments for disabling impairments are determined mainly
by individual income and resources.
Children born with a birth weight of less than 1,200
grams, or a birth weight of at least 1,200 grams but less than
2,000 grams (4 pounds 6½ ounces) and small for gestational age, are
considered disabled until age 1 and thus eligible for monthly disability
payments. These children must also meet SSI eligibility requirements
for income and resources. Parent and/or guardian income and resources
are also considered in granting SSI benefits to LBW children.
SSA is required by statute to perform reviews from
time to time to establish the continuing eligibility of SSI recipients.
To comply with the statute, SSA uses periodic CDRs to determine whether
the impairment(s) have improved sufficiently, since the most recent
disability determination, to permit recipients to engage in substantial
gainful activity. CDRs also apply to title XVI disabled children
whose impairments are expected to improve sufficiently to enable
them to function independently and effectively in an age-appropriate
manner.
SSA uses a diary date as the mechanism for scheduling
CDRs based on the individual`s chances for medical improvement.
Claims examiners at the offices of State disability determination
services (DDS) annotate the diary dates on disability determination
and transmittal forms (Form SSA-831), when initial entitlement
is established.
Under current SSA policy, the diaries for LBW children
are set to mature at age 1, if medical improvement is expected by
that time. However, the diary dates may be established at any appropriate
later date within 3 years of the adjudication date, depending on
the claims examiner`s judgment as to when medical improvement
is likely to occur.
Over the years, SSA has accumulated a backlog of CDRs
in the SSI program. In an initiative to reduce the backlog, SSA began
targeting LBW children for CDRs in December 1993. SSA notified State
DDS agencies to begin CDRs on selected cases. Initially, 1,203 cases
were released to State agencies for review and 888 determinations
were completed through December 1994. Of those determinations,
357 resulted in cessation of benefits, a cessation rate of 40.2 percent.
An additional 1,661 cases were released for CDRs in March 1994 and
a total of 6,000 cases were released in January and May 1995. SSA
experienced a cessation rate of 42.4 percent for the cases released
in March 1994, and a similar rate is expected for the cases released
in 1995.
Back to top
SCOPE
Our review was performed in accordance with generally
accepted government auditing standards. Our objective was to evaluate
the effectiveness of SSA`s policies and procedures for determining
initial and continuing SSI eligibility for LBW children and included
the following sub-objectives on whether:
1. a need exists to establish earlier diaries for
CDRs on LBW children;
2. missing claim folders affect CDRs;
3. proper deeming of income and resources to LBW
children had occurred;
4. other medical insurance was the primary payer
of medical expenses before Medicaid;
5. timely notification of the deaths of LBW children
was being made to SSA; and
6. the initial eligibility process for disability
determinations was proper.
To accomplish our objective, we:
Reviewed SSA`s policies and procedures
in the Program Operations Manual System, Supplemental Security
Income Records, and income queries.
Reviewed the laws and regulations relating
to LBW children.
Discussed cases with SSA`s Office of
Disability, SSI program and field office (FO) personnel, DDS
personnel, and representatives of various State Medicaid and
vital statistics agencies.
Selected 50 Social Security numbers (SSN)
from a LBW population of 8,864 SSNs identified and released
by SSA for CDRs between December 1993 and May 1995. SSA`s
criteria for selection of the December 1993 cases included
initial disability determinations and reconsiderations based
on denials for continued disability. None of the 50 cases reviewed
were in the appeal stage, or pending appeal, at the time of
the
Office of the Inspector General (OIG) review (see Appendix
A for statistical  and supplemental documentation).
Requested and reviewed case folders for
selected SSNs based on a questionnaire designed to capture
specific data on the six sub-objectives identified.
Calculated savings only on those cases where
a CDR had been completed. Cases terminated for reasons other
than a CDR were not included in the savings computation.
Savings determinations for initial cases were based on a period commencing
60 days after the diary maturity date. Savings determinations
for reconsideration cases were based on a period commencing
60 days after all appellate reviews had been completed. See Appendix
A for the sampling methodology.
We reviewed the internal controls necessary to meet
our objective. Major contributors to the report are listed in Appendix
C. Audit work was performed at the Southeastern Program Service Center
and the Alabama DDS from April 1995 to March 1996.
Back to top
RESULTS OF
REVIEW
SSA complied with all procedures relating to the six
sub-objectives. Our review of case folder contents revealed that
documents were present to support DDS and FO decisions on SSI disability
for LBW children.
SSAs initiative has reduced the backlog of CDRs
on LBW cases, although CDRs were not performed in a timely manner.
Our sample statistics show that 46 of 50 CDR diaries, or 92 percent,
were set to mature 1 year after adjudication. However, CDRs were
overdue from 4 to 30 months for those that were completed or
in process at the time of our review.
We reviewed case folders for 49 of the 50 cases in
our sample. One case folder was destroyed in the bombing of the Oklahoma
City Federal Building on April 19, 1995. However, we determined that
SSI payments in that case had been terminated prior to our review.
The child no longer met the SSI income/resources eligibility requirement
due to his mother`s remarriage. Since SSI benefits were no longer
being received, we considered it unnecessary to determine the effect
of the missing claim folder on the CDRs reviewed. The child will
be required to meet all SSI eligibility requirements at the time
of any future filing; therefore, the missing case folder guidelines
will not apply.
CDRs were performed on 35 of the 49 cases reviewed.
Even though diary dates for all but 2 of the 35 cases had been set
for 1 year from the date of adjudication, no CDRs were completed
by the time the diary dates had matured. As a result of CDRs that
were performed, children in 16 of the 35 cases reviewed, or 46 percent,
were terminated from the program.
Twelve of the 14 remaining cases (49 less 35) on which
CDRs had not been performed were overdue from 5 to 26 months, even
though 11 of the cases had been diaried for 1 year. One of the two
remaining children was terminated from the program before the CDR
diary matured, and the other child`s participation was terminated
after the diary matured but before the CDR was completed.
If CDRs for the 16 cases in our sample had been performed
in a timely manner and the children`s benefits terminated from
the SSI disability program at the time the diary dates matured, SSA
could have saved about $79,960.
By statistically projecting our sample results to the
8,864 children in SSA`s LBW initiative, we estimate that $7.78
million to $20.56 million may have been saved if CDRs had been performed
in a timely manner and the children whose impairments had sufficiently
improved to enable them to function in an age-appropriate manner
had been terminated from the SSI disability program.
The 1996 Welfare Act contains new requirements for
childhood disability. CDRs for LBW babies are now required to be
performed no later than 12 months after birth.
We discussed with SSA officials their plan for implementing
the CDR requirement for LBW children in the 1996 Welfare Act. Selection
criteria for targeting LBW children who fall within the parameters
of the new law are in place for CDRs to be performed during Fiscal
Year 1997. We believe the selection criteria identified by SSA will
accomplish the goal of including LBW children. However, we believe
that SSA should prepare a written implementation plan to present
the methodology and anticipated time frames for addressing the requirements
of the new law and reporting the results to the Congress.
Back to top
RECOMMENDATION
We recommend that SSA prepare a written implementation
plan addressing the requirements for LBW children in the 1996 Welfare
Act that would include performing timely CDRs, closer to the diary
dates, and anticipated time frames for completion and reporting the
results to the Congress.
Agency Comment
SSA agreed with our recommendation and will develop
a comprehensive plan. SSA also made several technical comments. Our
report reflects the changes we believed were appropriate; however,
there were three comments that we believe do not warrant change.
Agency Comment
SSA was not required by statute to perform periodic
CDRs of SSI recipients prior to the enactment of the Social Security
Independence and Program Improvements Act of 1994.
OIG Response
SSI CDRs were provided for in the law prior to 1994.
However, OIG acknowledges there may have been circumstances in which
SSA management decided not to perform title XVI CDRs.
Section 1601 of the Social Security Act, as amended
through January 1, 1991, states that for purposes of establishing
a national program to provide SSI to individuals who have attained
age 65 or are blind or disabled, sums sufficient to carry out
this title are authorized to be appropriated.
Section 1611(e) 3(B) of the Social Security Act further
states that the Secretary shall provide for the monitoring and testing
of all individuals who are receiving benefits under this title.
In addition, Title 20 of the Code of Federal Regulations
(CFR), Chapter III, Part 416 entitled, Supplemental Security Income
for the Aged, Blind, and Disabled, Subpart I - Determining Disability
and Blindness, section 416.989 provides that after individuals are
found to be disabled, SSA must evaluate their impairment(s) from
time to time to determine their continued eligibility for payments
based on disability.
Section 416.990(a) of the CFR further mandates that
SSA conduct CDRs to determine whether individuals continue to meet
the disability or blindness requirements of the law.
Agency Comment
Since the review may take an average of 120 days, any
computation of savings should not be based on the diary maturation
date.
OIG Response
The sample cases generally showed reviews of 30 to
90 days duration. The calculations of savings were based on an average
60-day period for the reviews. We also considered the 60-day grace
period during which SSI recipients continued to receive benefits
after the date SSA determined the recipient was no longer disabled
and eligible for benefits.
Agency Comment
The report does not provide a basis to support the
assumption that a timely CDR (when the diary matured) would have
resulted in a cessation.
OIG Response
It is just as likely that the ultimate number of cessations
will be greater than the projection as that it will be less. Although
the sample size is limited, nevertheless, the projection is statistically
valid and the results are significant.
Agency Comment
SSA was concerned about the potential savings cited
in the report and the methods used.
OIG Response
OIG used valid statistical sampling methods in accordance
with OIG`s policies and standards. The results were reviewed
and accepted as statistically valid.
We could not use SSA`s approach because we did
not know how many of the 8,864 cases did not have CDRs. More importantly,
SSA`s method (a nonstatistical estimate) would only predict the
effect on those cases for which no CDR had been performed. It would
ignore those cases for which CDRs had been completed. Moreover, we
would not have been able to calculate the sampling error because
SSA`s method would require projecting our sample results to a
population different from which we sampled. SSA`s method would
violate the rules of probability upon which statistical sampling
is based.
David C. Williams
Back to top
APPENDICES
Appendix A
SAMPLING METHODOLOGY
Children Terminated Due To A Completed Continuing
Disability Review
Total Population: 8,864
Total Sample Size: 50
Number of Delayed CDRs: 16
Projection of Delayed CDRs: 2,836
CONFIDENCE LEVEL: 90 percent confident
the actual number of children terminated due to a completed CDR is
between 1,882 and 3,939 inclusively.
Value of Delayed CDRs: $79,963
Value of Projection of Delayed CDRs: $14,175,841
CONFIDENCE LEVEL: 90 percent confident
the actual amount is between $7,785,009 and $20,566,672 inclusively.
Back to top
Appendix
C
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Gary Kramer, Director, Program Audits
Betty Alexander, Team Leader
William McMillan, Team Leader (Acting)
Kathy Woodcock, Team Leader
Ellen Justice, Team Member (Auditor-in-Charge)
Donna Reynolds, Team Member
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified